HHS/OIG-Audit--"Review of the Department's Health Benefits Program, (A-12-91-00008)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Department's Health Benefits Program," (A-12-91-00008)
March 24, 1992
Complete Text of Report is available in PDF format
(181 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of the Department's health
benefits program. We identified the following four areas needing improvements
in the Department's program: (1) the Department did not pay the correct amount
of the employer's share of the premiums for all enrolled employees; (2) some
offices lacked documentation to confirm that carriers received enrollment changes
and terminations timely; (3) internal control reviews of personnel operations
were not adequate to identify and correct the weaknesses we identified; and
(4) the Department corrected only about two-thirds of the discrepancies that
the carriers identified through the reconciliation process.